No. 20-354
In The

Supreme Court of the United States
In re LORCAN T. KILROY
Petitioner,
v.
LOS ANGELES UNIFIED
SCHOOL DISTRICT BOARD OF EDUCTION et al.,
Respondents

REPLY TO BRIEF IN OPPOSITION TO
PETITION FOR EXTRAORDINARY WRIT OF
MANDAMUS

Lorcan T. Kilroy
In Pro Se
8927 Cedros Avenue, No. 6
Panorama City, California, 91402
Telephone: (818) 481-4873
Email: lorcankilroy@gmail.com

RECEIVED
OCT 21 2020
OFFICE OF THE CLERK
SUPREME.COURT, U.S.

TABLE OF CONTENTS
Page

Defendants And Defense Counsel
Should Be Disciplined By The Court
And / Or Attorney Admissions Staff
For Sexualized Defamatory Ad
Hominem Attacks Against
Petitioner Throughout Their
Paper

4

Defendants Fail To Appropriately
Counter The Specific Points And
Supporting Appendices Within
The Petition

13

Defendants Spoiled The Face
Page Of Their Opposition At
Initial Filing, With Intent To
Deceive Justices

15

CONCLUSION
This Is A Rare Case, Truly Fit For
Mandamus , That Boggles
The Mind In Unprecedented Fashion
And Demands Unprecedented
Extreme Remedy

2

16

TABLE OF AUTHORITIES

FEDERAL CASES
Cleveland Board of Education v. Loudermill,
470 U.S. 532 (1985)

16

STATE CASES
Skelly v. State Personnel Board,
15 Cal. 3d 194 (1975)

16

STATUTES
U.S.C. ยง 1503

13

3

REPLY TO BRIEF IN OPPOSITION TO PETITION FOR
EXTRAORDINARY WRIT OF MANDAMUS

I. DEFENDANTS AND DEFENSE COUNSEL SHOULD BE
DISCIPLINED BY THE COURT AND/OR ATTORNEY
ADMISSIONS STAFF FOR SEXUALIZED DEFAMATORY AD
HOMINEM ATTACKS AGAINST PETITIONER
THROUGHOUT THEIR PAPER

Petitioner is now compelled to plead for some form of public
admonishment or discipline of Los Angeles Unified School
District, (LAUSD), and other individual defendants and
counsel.
Following the lead of the ninth circuit court of appeals,
defendants and LAUSD defense counsel Melinda Cantrall have
chosen the path to simply ignore the petition's points,
substantively deny existence of the motion for summary
judgment that petitioner filed first, and just ignore fact of their
own admissions to certain undisputed material facts, as
detailed in the petition. Cantrall also tries to make the case
that to substantiate mandamus, there ludicrously must be
direct evidence that ninth circuit jurists were thinking about
protecting Kamala Harris when they exercised their
bias. This is not so. The circumstantial evidence, and jurists

4

veering so far away from the path law led them to, suffices.
Instead, in this most public United States court docket,
defendants and lawyers Melinda Cantrall and Thomas C.
Hurrell enter in their opposition what are, (because of closed
lower court dockets with no evidence now supporting their
false assertions), just falsified, sexualized, ad hominem
defamatory Supreme Court docketed attacks against
petitioner. Los Angeles Unified School District defendants and
their LAUSD lawyers Melinda Cantrall and Thomas Hurrell
repeatedly lie throughout their opposition that Los Angeles
Unified schoolchildren made allegations of sexual misconduct
against Art teacher petitioner. These lies are cleverly, craftily,
in devious fashion, disguised by lawyer Cantrall with such
labels as "statement of facts". (See in contrast the only filed
classroom student declared witness statements ,(which dispute
Cantrall's lies), as USDC 2:16-cv-09068-DMG-JDE documents
217- 219.) Given this "'lie to win if you can get away with it"
brutal lawyering , petitioner thus pleads that the court have
clerks back track and check any of defendants's "facts"
considered to be determinative, against each referenced SER,
and moreover double check each SER against corresponding
lower USDC docketed records , to guard against possible sly
forgeries having been "slipped in" amongst filed excerpts.

5

Instead of countering points in the petition as is
appropriate, defendants and Los Angeles Unified School
District lawyer Melinda Cantrall appear to have intent to
inflame the vastly seasoned jurists of the United States
Supreme Court, simply by sprinkling their paper with false
impute to petitioner, of humankind's rightly most loathed
disease, (pedophilia). They hope disgusted jurists ignore
distinctions of what is, and what is not, evidence, and reject
questions presented. (Or Los Angeles Unified School District
lawyer Cantrall is simply sexually sick herself and is
motivated to try to palpably harm petitioner via sexualized
malice , by latent or underlying sexual or psychosexual
pathology).
Either way, such utterly sordid falsified "pedophilia scare"
tactic by public school district individuals and their lawyer is
appallingly disrespectful and inappropriate to this highest
court, and laughable in that Cantrall appears to think justices
will succumb to her scheme. Los Angeles Unified School
District lawyer Melinda Cantrall, (with her partner Thomas
Hurrell over her shoulder), is playing with a legal license
granted her by admission to this court, and petitioner
respectfully pleads a stop be put to it.

6

The attacks are sickeningly sly. They come in the form of
continuing horrific sexualized lies that Los Angeles Unified
School District schoolchildren made sexual allegations against
schoolteacher petitioner, factual assertion unsupported
by any admissible evidence. Lower court dockets are closed. The
defamations are thus nakedly ad hominem. Cantrall slyly only
references readers to buried inadmissible Los Angeles Unified
School District administrative, and other inadmissible hearsay,
lies, deep in ninth circuit and USDC dockets. She falsely
imputes loathsome disease of pedophilia to petitioner,
referencing as her evidence defendants "SER" (supplemental
excerpts of record), in the lower court record, records which
necessitate a 'PACER' account and some minimal legal
knowledge to access. In this way Los Angeles Unified School
District, the individual defendants, and their lawyer Melinda
Cantrall know that forever, the layperson public looking at the
filings in the United States Supreme Court docket, and
prospective employers of petitioner, even legal community
members, will fail to access those SER records, and, even if they
do, they will fail to know that they are undeclared and
inadmissible hearsay. The reading public, and even legal
professionals, prospective employers, and others, will basically
7

be duped into believing that schoolchildren made monstrous
sexual allegations against Kilroy when lack of any admissible
witness statements show only LAUSD adults like lawyer
Cantrall lied hearsay throughout this case about sexual
allegations having been made. Because children often have a
natural honesty and a natural basic sense of justice, this vicious
falsified attribution to them by Cantrall makes the lies more
plausible and prejudices petitioner's liberty and livelihood even
more, scarring his name for the remainder of history.
Defendants and Melinda Cantrall and Thomas Hurrell know
this. Resultantly unemployable and destitute petitioner pleads
for relief, for law and order of this court to stop Los Angeles
Unified School District individuals and rogue lawyers Melinda
Cantrall and Thomas Hurrell's vile course unbefitting any bar
member or public employee. Petitioner pleads the court consider
a public order that all LAUSD administrative defamatory and
otherwise hearsay inadmissible documents authored by adults
falsely, in hearsay fashion, imputing pedophilia to petitioner, be
now deleted from the lower court dockets and this docket. He is
aghast that lower courts silently allowed, without even

8

comment, these harmful inadmissible hearsay documents to be
permanently filed in support of defendants' court movements.
In evaluating these inappropriate sleazy ad hominem attacks
to try to influence the court, the court should be aware that the
only declared admissible witness statements ever filed in both
related cases, (the instant case and Supreme Court case No. 189663), and in all of the vast volume of related lower
court filings, (alongside petitioner's own uncontroverted
declarations), support that no sexual misconduct allegations by
children were ever made. (see scant declarations of Millikan
Middle school students harvested by petitioner in instant lower
court case 2:16-cv- 09068-DMG-JDE as documents 217- 219,
but "last minute" juvenile declarants obviously "prepped" by
LAUSD lawyers.) To the point, none of those direct witnesses
ever declare that they ever made any sexual allegations
against petitioner in the Los Angeles Unified School District.
No admissible statements from any students supporting that
such allegations were made, exist in the now closed lower court
proceedings. Cantrall is thus knowingly directly lying to
United States Supreme Court justices when she repeats ad
nauseum as "statement of the case" and "statement of facts",
that schoolchildren accused petitioner of

9

sexual misconduct, (see oppo.) United States courts should not
tolerate such vile conduct by any sworn officer.
It is of note that, as of signing, unidentified court staff
effected, (accidentally or deliberately), a critical page to be
missing from their scan of pro se petitioner's,( paper filed),
appendix into the online docket, and petitioner has filed
application to Justice Elena Kagan, (with Justice Kavanaugh as
intended designee upon any denial), to have the clerk restore
that page. (Calls and emails to the clerk's office were
unreturned). The missing,(second to final), appendix page is an
exhibit of Pg. 55 of 65 from lower court docket in USDC 2:16-cv09068-DMG-JDE, document 155. Petitioner did check all pages
when paper filing the petition and the page was intact in the
paper volume he Fedexed to the court at filing. (See Decl. Kilroy
to application to Justice Kagan received via Fedex,(tracking #
397551836991), at the Supreme Court on 10/08/2020, signed for
by a J. Konos, but not docketed as of signing of this reply).
Petitioner served a courtesy copy on Senator McConnell's staff
and delivered a courtesy copy to Justice Kavanaugh's clerk.
Petitioner reasonably pleads deliberations upon request for
mandamus not proceed until an intact petition is distributed,
(including the whole intact petition as customary to any

10

Justice(s) who do not participate in the pool).
Defense law firm partners Thomas Hurrell & Melinda
Cantrall, alongside LAUSD defendants, orchestrated, as a
"lawyer trick", the middle school campus falsification of sexual
"dirt" on a pro se schoolteacher plaintiff, (petitioner Kilroy), but
have now failed, at the end of California federal litigation, to
enter even one iota of admissible evidence showing any child
made any such allegations. They have only entered their
tellingly unsworn adult administrative hearsay LAUSD
"forms" and a criminally tampered with, (missing author's
signature/final page 11 of 11), so-called "Student Safety Team
Investigative Report" (USDC 2:16-cv-09068 Doc. # 154-6, Pgs. 6-15),
created by secret author not in the classroom setting of the
falsifications. These absurd corrupt unsworn school documents with
outrageously missing author signatures claimed that then twelve year
unblemished veteran Art teacher Kilroy's character supposedly
suddenly changed one day after he had filed a thorny lawsuit against
them, and that he suddenly took it upon himself one day to stare at 7th
grade female students' buttocks and look into an illegally rigged up
broom closet "changing room" in the dance classroom they had
disparately placed him in to substitute in Fall of 2015. In contrast,
petitioner has entered student classroom witness declarations
exonerating him.

11

Further, not even one declaration has been entered by defendants
of any adult stating under perjury penalty that petitioner
committed either of the two sexualized acts he is falsely
accused of, only hearsay, and more hearsay. Yet despite this,
criminal U.S.C. violation obstructions still stand as the basis for
defendants having robbed petitioner of livelihood and liberty for life.
Never was the constitutional mantra "innocent until proven guilty "
observed here, in the rabid criminal haste to cut off money to pro se
petitioner's federal action and render him destitute.
After each attack, (e.g. see Defts' oppo. pp. 4,18-19,pp 5,1314,pp10, 4-6,pp 11, 13-14), lawyer Melinda Cantrall
convincingly references defendants' "SER", but there is no nonhearsay admissible evidence in any record that shows that any
child actually made any sexual misconduct allegation. Lawyer
Cantrall knows this. She knows that public viewers of the
Supreme Court record in the future are not going to find the
SER. She knows she is deliberately permanently harming
petitioner with each lie about children. The fact that defense
counsel Melinda Cantrall would stoop to do this to another
human being, speaks volumes about her possible involvement
in orchestrating the original Fall 2015 sexual falsifications at
the middle school. What else would sprout such unrelenting
monstrous sexualized malice towards another human being?

12

Perhaps her own psychosexual pathology, but more likely, the
fact that she and fellow bar member partner Thomas C.
Hurrell were criminally personally individually involved in
orchestrating LAUSD lay individuals' acts at the school, an 18
U.S.C. ยง 1503 violation. They now struggle to keep alive their
lie to avoid incarceration and disbarment.

II. DEFENDANTS FAIL TO APROPRIATELY COUNTER
THE SPECIFIC POINTS AND SUPPORTING APPENDICES
WITHIN THE PETITION

Amidst all of defendants' and LAUSD lawyers Thomas C.
Hurrell's and Melinda Cantrall's defamatory, sexualized,
pedophilia imputing fabrications, their opposition just hops,
skips and jumps over, and completely ignores, the petition's
points that show the appeals and lower court jurists defying the
path of the law. They obviously hope Supreme Court jurists will
follow suit. They ignore petitioner Kilroy's Motion for Summary
Judgment crucial statement of uncontroverted material facts,
(e.g. case 2:16-cv-09068-DMG-JDE Document148, pages 40-41
(crucial facts # 65-68), filed 06/04/18), and ignore their own
supposedly corresponding crucial admissions, (see e.g. 2:16-cv09068-DMG- JDE Document 155, filed 06/21/2018, pages 54-55
(LAUSD's crucial facts # 66-69 but scrambled numeration not
13

corresponding to Kilroy's #65-68 numeration)). The opposition
just ignores that defendants indeed scrambled their MSJ
response numeration, and ignores fact that Kilroy's MSJ was
also filed before LAUSD Defendants' MSJ was filed, but never
adjudicated in any substantive way. Again, these MSJ
documents show the meeting between petitioner and Millikan
Middle school Principal PLEVACK did not meet the standards
set by Cleveland Board of Education v. Loudermill, 470 U.S.
532 (1985), because PLEVACK received a "red flag", (Kilroy's
uncontroverted declaration denying the sexualized
falsifications), yet did not enact a Loudermill "check on
mistaken decisions." They establish that petitioner never had
the termination 'statement of charges' until well after the Dec.
2015 Millikan Principal PLEVACK meeting, and also the
supposed "Skelly" meeting, and that he was emailed dozens of
obfuscating emails the night before, and supposedly related to,
the supposed "Skelly" meeting, thus failing Loudermill's
minimal "reasonable time and place" standard. They establish
that his salary (property) was cut off indefinitely on a date
weeks or months before the state "office of administrative
hearings", (OAH), hearing could possibly have taken place,
nullifying that offering as being satisfactory of Loudermill as
was postured by the ninth circuit appeals court. Defendant's
14

opposition falls flat when these facts are brought in.

III. DEFENDANTS SPOILED THE FACE PAGE OF THEIR
OPPOSITION BRIEF AT INITIAL FILING, WITH INTENT
TO DECEIVE JUSTICES

In reflexive shifty criminal manner defendants in scheme
spoiled the face page of their opposition brief when initially
filing it on Oct. 7, 2020. They fabricated a fictitious case
number and entered incorrect caption, (no "In Re" or initial
"T."), and then labeled their opposition as being to a nonexistent case in the "Supreme Court of California." (They
have perhaps already corrected it all as of the docketing of
this reply, anticipating this critique.) These shenanigans,
(violating rules 34.1(a)(b)(c)), were obviously in hopes United
States Supreme Court justices would believe they casually
"mistook" the instant petition for a state case in California.
Based on scrutiny of their Oct. 7, 2020 e-filed paper, they
could only have entered such errata in a deliberate strategy,
to feign casualness, because no such state docket number
exists and their "oops, wrong case" mistake was thus
deliberately created from scratch. They also clumsily reveal
that the whole thing was staged, (based on their seven-year
15

docket habit of always filing on the due date for their
respective briefs to disallow petitioner excess response time),
by disparately filing a week before due date to allow them to
step in and "correct" their "mistake" before due date if clerk
required it. (Petitioner noticed Cantrall by email that he was
wise to the whole scheme on Oct. 12, 2020.) On the other
hand, perhaps the court is just fine with such activity.

CONCLUSION
Legally, because it was a (false) criminal allegation of
sexual misconduct with children, from the onset the burden
should have been on Los Angeles Unified School District
defendants to prove the truth of their sordid abrupt midlitigation false sexualized allegations, (obstructions.) The
burden should not have been on petitioner to prove his
innocence. Legally, Kilroy had a constitutional right to remain
"innocent until proven guilty." This was in the wake of his
unearthing of Sen. Kamala Harris' snowballed
involvement,(as CAG), in the Los Angeles police commission's
politically motivated upholding of the corruption and cover up
of Los Angeles police detective's report 12-09-11015, (white
schoolteacher perpetrator/minority student battery victim).
Petitioner's constitutional rights were robbed, (see also
uncontroverted affidavit re, Harris within appendix of related
16

t

Supreme Crt. No. 18-9663.)
Angry defendants and Kamala Harris' former colleagues
in the Los Angeles Police Department, (LAPD), angrily
criminally conspired together, (perhaps even with Harris'
camp), to make sure "innocent until proven guilty" would not
be the course for petitioner. They agreed together to
outrageously refer any police investigation, (referral that
defendants repeatedly openly admit), and even refer
punishment, of a reported supposed, (though falsified), crime
involving minors, back to a public school district, (LAUSD),
not a law enforcement agency. (See e.g. USDC 2:16-cv-09068Document 157-2, pg. 6, Millikan assistant principal Paula
Greene's own perjury declared "incident report" stating "
LAPD (Los Angeles Police Department) took SCAR
(suspected child abuse report), and said to handle the
situation administratively.') This was, and is, unbelievable
RICO or RICO like illegal activity to weasel around any law
enforcement investigation, which still has not happened.
To ignore the petition's points, and continue to defame and
smear, was defendants' boorish approach to their opposition.
This case shows that, in regard to the precedent set by
Loudermill, the ninth circuit will abandon vertical stare decisis

when it suits them, to protect their national political figure
Kamala Harris from criminal exposure. Instead, they just invent
their own twisted version of Loudermill, in this case damaging
petitioner by severing his property interest, (salary), months
and months, if not a year or more, before the state's OAH hearing
supposedly satisfactory of Loudermill was possible, undermining
the foundation of the precedent itself. How many other invisible
victims of this tactic also exist in the ninth circuit?
This is a rare case, truly fit for mandamus, that boggles
the mind in unprecedented fashion and demands
unprecedented extreme remedy. For justice to be served, a court
order for a vigorous and impartial non-California federal grand
jury investigation is warranted, as crime/fraud exception to
privilege testimony will need to be squeezed out from tight
lipped squirming lawyers and employees of Los Angeles county,
and former attorney general colleagues of Kamala Harris and
Los Angeles police commission members.
The court should thus grant petitioner's request for an
extraordinary writ of mandamus, in full, and order the
extraordinary unprecedented removal and remand requested.
Respectfully submitted,
Dated October 12, 2020

By: s / s Lorcan T. Kilroy
LORCAN T. KILROY
Petitioner In Pro Se

18

